No.

IN THE
SUPREME COURT OF THE UNITED STATES

PAUL CASTONGUAY

— PETITIONER

(Your Name)
VS.

DOUG PETERSON,
THE STATE OF NEBRASKA

— RESPONDENT(S)

PROOF OF SERVICE
T

PAUL CASTONGUAY

_________________ , do swear or declare that on this date,
2a4Vv
, 20 21 , as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
THE STATE OF NEBRASKA/ DOUG PETERSON NEBRASKA ATTORNEY GENERAL
2115 STATE r.APTTOT. RT.nO., P.n

ROY Q«Q90 TTMrnTfJ^

MF

68509-8920.

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

Mfitvj 9(\ -jh.

20_£L

7
14

IN THE
SUPREME COURT OF THE UNITED STATES
PAUL CASTONGUAY,

CASE NO.

)
)
)
)
)
)
)
)
)
)
)

PETITIONER,
VS.
DOUG PETERSON, THE
STATE OF NEBRASKA,
RESPONDENTS,

AFFIDAVIT OF PETITIONER
PAUL CASTONGUAY

I, Paul Castonguay; the Petitioner in the aboved entitled
case hereby swear on oath and declare under penlty of perjury that
I am above the age of 21 years of age and that I,m about to give a
sworn statement that is true and correct and to my believe that I
had No Knowledge of the Victim's DNA Results/Report until years
later in my criminal case. That, the State had withheld exculpatory
evidence from me base on the fact the victim was not available to
come forward to testify in open court against me due to her sudden
death that occured on (December 23, 2008). Where, the State knew
that they lost there witness/and deliberately hindered Brady, material
such as the DNA Findings that defendant was not, aware of until
years later after serving part of his sentence before it came into
light.
Dated thisday of Mg

,2021.
Respectfully Submitted:
By:
raulC-GtistiO

ay-Petitioner

SUBSCRIBED and SWORN to before me is a Notary Public in and for the
-fW

State of Nebraska on this ^

M

Seal

day of

,2021.

RECEIVED

GENERAL NOTARY - State of Nebraska
ANGELIQUE S. BREWER
My Comm. Exp. April 19,2022

S.
Notary/

Public,Signature

MAY 7 6 2021
gBS5gfjS5agg

